Audit Report




OIG-12-043
SAFETY AND SOUNDNESS: Reviews of Failed National Banks
Owned by First Bank of Oak Park Corporation
March 1, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents

Audit Report

  Results in Brief ..........................................................................................       2

  Causes of Failures of the FBOP Banks ..........................................................                  5
    Devaluations in Investment Securities .....................................................                    5
    Concentrations in GSE Securities ............................................................                  6
    Aggressive Growth and High-Risk Concentrations in CRE Loans .................                                  7
    Inadequate Capital Levels ......................................................................              10
    Park’s and Citizens’ Cross-Guarantee Liability...........................................                     13

  OCC’s Supervision of the FBOP Banks. ........................................................                   13
    Summary of OCC’s Supervisory Actions ..................................................                       14
    OCC Supervision of the FBOP Banks During a Critical Period of Growth in
       CREs and GSEs ................................................................................             15
    OCC Regulations for Risk-Weighting of GSE Securities Should
       Be Reconsidered ..............................................................................             18
    OCC Provided Deferred Tax Asset Relief to the FBOP Banks ......................                               19
    OCC’s Use of PCA and Enforcement Actions ...........................................                          21

  Causes of Failure of Bank USA and Citizens .................................................                    27

  Recommendation.......................................................................................           29

Appendices

  Appendix     1:      Objectives, Scope, and Methodology ....................................                    31
  Appendix     2:      Background........................................................................         35
  Appendix     3:      Management Response .......................................................                41
  Appendix     4:      Major Contributors to This Report .........................................                43
  Appendix     5:      Report Distribution ..............................................................         44

Abbreviations

  Bank USA             Bank USA, National Association
  California           California National Bank
  Citizens             Citizens National Bank
  CPP                  Capital Purchase Program
  CPP Council          TARP Capital Purchase Program Council
  CRE                  commercial real estate
  CRP                  Capital Restoration Plan

                       Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation             Page i
                       (OIG-12-043)
DIF           Deposit Insurance Fund
Fannie Mae    Federal National Mortgage Association
FBA           federal banking agency
FBOP          First Bank of Oak Park Corporation
FDIC          Federal Deposit Insurance Corporation
FRB           Board of Governors of the Federal Reserve System
Freddie Mac   Federal Home Loan Mortgage Corporation
GSE           Government Sponsored Enterprises
IMCR          Individual Minimum Capital Ratio
MRA           matters requiring attention
OCC           Office of the Comptroller of the Currency
OIG           Office of Inspector General
OTS           Office of Thrift Supervision
OTTI          other than temporary impairment charge
Pacific       Pacific National Bank
Park          Park National Bank
PCA           prompt corrective action
ROE           report of examination
San Diego     San Diego National Bank
TAGP          Transaction Account Guarantee Program
TARP          Troubled Asset Relief Program
Treasury      Department of the Treasury
WaMu          Washington Mutual Bank




              Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page ii
              (OIG-12-043)
                                                                                           Audit
OIG
The Department of the Treasury
                                                                                           Report
Office of Inspector General




                       March 1, 2012

                       John G. Walsh
                       Acting Comptroller of the Currency

                       This report presents the results of our reviews pursuant to
                       section 38(k) of the Federal Deposit Insurance Act of the six failed
                       national banks owned by the First Bank of Oak Park Corporation
                       (FBOP). The Office of the Comptroller of the Currency (OCC) closed
                       the banks and appointed the Federal Deposit Insurance Corporation
                       (FDIC) as receiver on October 30, 2009. The table below shows the
                       six banks, FDIC’s estimated losses to the Deposit Insurance Fund
                       (DIF) 1 and Transaction Account Guarantee Program (TAGP) as of
                       December 31, 2011, and the type of review under section 38(k) we
                       performed.
                                                                      Estimated Loss at
                                                                     December 31, 2011     Type of
                                                                         (in millions)     Review
                       FBOP Bank Name and Location                     DIF        TAGP     Performed
                       California National Bank (California)
                                                                       $900.1      $13.6   Material Loss
                       Los Angeles, California
                       Park National Bank (Park)
                                                                        417.7       17.9   Material Loss
                       Chicago, Illinois
                       San Diego National Bank (San Diego)
                                                                        366.7       12.6   Material Loss
                       San Diego, California
                       Pacific National Bank (Pacific)
                                                                        310.9        2.3   Material Loss
                       San Francisco, California
                       Bank USA, National Association (Bank USA)
                                                                         30.2        2.1   Limited
                       Phoenix, Arizona
                       Citizens National Bank (Citizens)
                                                                         16.7        0.1   Limited
                       Teague, Texas
                       Total                                         $2,042.3      $48.6




1
 Certain terms that are underlined when first used in this report, are defined in, Safety and Soundness:
Material Loss Review Glossary, OIG-11-065 (April 11, 2011). That document is available on the
Department of the Treasury (Treasury) Office of Inspector General (OIG) website at
http://www.treasury.gov/about/organizational-structure/ig/Pages/by-date-2011.aspx.

                       Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation    Page 1
                       (OIG-12-043)
                       Our material loss reviews of four FBOP national banks (California,
                       Park, San Diego, and Pacific) 2 are mandated by section 38(k) because
                       of the magnitude of each bank’s estimated loss to the DIF at the time
                       of failure. 3 The objectives of the material loss reviews were to
                       determine the causes of the banks’ failures and associated impact to
                       the DIF; assess OCC’s supervision of the banks, including
                       implementation of the prompt corrective action (PCA) provisions of
                       section 38; and make recommendations for preventing such losses in
                       the future.

                       In accordance with section 38(k), we also performed reviews of the
                       other two FBOP national banks (Bank USA and Citizens) that were
                       limited as the magnitude of these two banks’ losses to the DIF was
                       below the threshold requiring a material loss review. Our objectives for
                       Bank USA and Citizens were limited to (1) ascertaining the grounds
                       identified by OCC for appointing the FDIC as receiver and
                       (2) determining whether any unusual circumstances exist that might
                       warrant more in-depth reviews of the losses.

                       We conducted our fieldwork from March 2010 through August 2010.
                       Appendix 1 contains a more detailed description of our objectives,
                       scope, and methodology. Appendix 2 contains background information
                       on the history of the six banks we reviewed and OCC’s assessment
                       fees and examination hours.

Results in Brief
                       The four FBOP banks that were the subject of our material loss
                       reviews failed primarily due to significant losses associated with their
                       concentrations in (1) investment securities, including government

2
  Throughout this report we collectively refer to these four national banks as the FBOP banks. FBOP also
owned three state-chartered banks that were regulated by FDIC: North Houston Bank of Houston, Texas,
Madisonville State Bank of Madisonville, Texas, and Community Bank of Lemont of Lemont, Illinois. FDIC
OIG conducted a material loss review on North Houston Bank and Madisonville State Bank; and issued a
separate report, which is available on their website at http://www.fdicoig.gov/reports10/10-036.pdf. FDIC
OIG did not include the Community Bank of Lemont in its material loss review because, at the time of its
failure, the institution’s loss was not material as defined in the Federal Deposit Insurance Act.
3
  At the time of failure of the FBOP banks, section 38(k) defined a loss as material if it exceeded the greater
of $25 million or 2 percent of the institution’s total assets. Effective July 21, 2010, section 38(k) defines a
loss as material if it exceeds $200 million for calendar years 2010 and 2011, $150 million for calendar
years 2012 and 2013, and $50 million for calendar years 2014 and thereafter (with a provision that the
threshold can be raised temporarily to $75 million if certain conditions are met).

                       Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 2
                       (OIG-12-043)
                        sponsored enterprise (GSE) securities and corporate bonds, and
                        (2) high-risk commercial real estate (CRE) loans. In addition, the FBOP
                        banks did not maintain adequate capital levels to mitigate their
                        increasing levels of risk, and were unsuccessful in efforts to obtain
                        funds from either Treasury’s Troubled Asset Relief Program (TARP) or
                        private sources to make up for the losses sustained by the banks.

                        With respect to the failure of Park, FDIC issued the bank a Notice of
                        Assessment of Liability that required an immediately payable cross-
                        guaranty liability in the amount of $1.7 billion. 4 Though adequately
                        capitalized prior to the Notice of Assessment of Liability, Park was no
                        longer viable after the assessment since it exceeded the bank’s total
                        capital. The resulting depletion of Park’s capital levels caused the bank
                        to become critically undercapitalized with no reasonable prospect of
                        recapitalization. As a result, OCC placed Park into receivership at the
                        same time as the other FBOP banks.

                        Regarding supervision of the FBOP banks, we concluded that OCC had
                        a reasonable basis at the time of its examinations for believing the
                        banks could manage the risks of increased concentrations in CRE. We
                        noted, however, that OCC permitted the FBOP banks to risk-weight
                        the banks’ GSE equity securities at 20 percent for regulatory capital
                        purposes. The capital regulations of the other federal banking agencies
                        (FBA) require risk-weighting these types of securities at 100 percent. 5
                        The effect is that OCC-regulated FBOP banks had to hold less
                        regulatory capital as a cushion against losses.

                        OCC granted temporary relief to the FBOP banks on the capital
                        treatment of deferred tax assets 6 that arose from the banks’ GSE
                        investment write-downs. We determined that OCC exercised
                        reasonable supervisory judgment in providing this relief. As the FBOP

4
  FDIC also issued a Notice of Assessment of Liability to Citizens, one of the FBOP national banks for which
we performed a limited review of the failure, rather than a material loss review.
5
  The other FBAs are the former Office of Thrift Supervision (OTS), FDIC, and Board of Governors of the
Federal Reserve System (FRB). Effective July 21, 2011, pursuant to P.L. 111-203, the functions of OTS
transferred to OCC, FDIC, and FRB, with OCC assuming the supervisory responsibility for federal savings
associations.
6
  Deferred tax assets are assets that reflect, for reporting purposes, amounts that will be realized as
reductions of future taxes or as future receivables from a taxing authority. Deferred tax assets may arise
because of specific limitations requiring that certain net operating losses or tax credits be carried forward if
they cannot be used to recover taxes previously paid. These “tax carry forwards” are realized only if the
institution generates sufficient future taxable income during the carry forward period.

                        Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 3
                        (OIG-12-043)
                       banks’ reported falling capital levels immediately following the
                       expiration of the deferred tax asset relief, we concluded that OCC
                       used its authority under PCA in a timely manner.

                       Regarding our limited reviews of the Bank USA and Citizen failures,
                       we determined that there were no unusual circumstances surrounding
                       the banks’ failures or the supervision exercised by OCC. Accordingly,
                       we have determined that more in-depth reviews of these banks’
                       failures by our office are not warranted.

                       We have referred certain capital-related transactions by Park and
                       Citizens to the Treasury Inspector General’s Office of Investigations.

                       Recommendation

                       We are recommending that OCC re-evaluate whether OCC
                       requirements for risk-weighting of GSE equity securities should be
                       changed from 20 percent to 100 percent.

                       Management Response

                       OCC also agreed that a re-evaluation of its guidance for risk-weighting
                       GSE equity securities is appropriate, and anticipates addressing this in
                       the upcoming notice of proposed rulemaking for Basel III 7 to ensure
                       consistency among all of the federal banking agencies. We consider
                       OCC’s planned action to be responsive to our recommendation.




7
  The Basel Committee on Banking Supervision provides a forum for regular cooperation on banking
supervisory matters. Its objective is to enhance understanding of key supervisory issues and improve the
quality of banking supervision worldwide. In this regard, the Committee is best known for its international
standards on capital adequacy; the Core Principles for Effective Banking Supervision; and the Concordat on
cross-border banking supervision. The Committee's members come from 27 countries, including the United
States. Basel III is a global regulatory standard on bank capital adequacy, stress testing and market liquidity
risk agreed upon by the Committee in 2010-2011.

                       Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 4
                       (OIG-12-043)
Causes of Failures of the FBOP Banks
                       Devaluations in Investment Securities

                       GSE Securities

                       Beginning in 2007, the FBOP banks purchased Federal National
                       Mortgage Association (Fannie Mae) and Federal Home Loan Mortgage
                       Corporation (Freddie Mac) preferred equity for investment purposes. 8
                       The combined book value of the GSE investments for all four banks
                       was $802.5 million as of June 30, 2008, as shown in table 1 below.
                       After the Federal Housing Finance Agency placed Fannie Mae and
                       Freddie Mac into conservatorship on September 7, 2008, the
                       combined market value of these investments declined significantly to
                       $53.5 million, and the banks were required to write down their GSEs
                       investments by approximately $749.0 million in total by
                       September 30, 2008. The losses in market values of its holdings in
                       these securities were one of the underlying causes of the FBOP banks’
                       failures.

                       Table 1. FBOP Banks’ Investments in GSEs and Write-Downs (in millions)
                                                               Investments in GSEs
                                                                                            Total Write
                                                    Book Value        Market Value         Downs as of
                       FBOP Bank               as of 6/30/2008     as of 9/30/2008           9/30/2008
                        California                         $434.8                   $29.5              $405.3
                        San Diego                            171.2                   11.3               159.9
                        Park                                 112.2                     7.3              104.9
                        Pacific                               84.3                     5.4               78.9
                        Total                              $802.5                   $53.5              $749.0
                       Source: OCC records of the FBOP banks’ Fannie Mae and Freddie Mac data.


                       The devaluation of the Fannie Mae and Freddie Mac preferred stock
                       contributed to significant losses and depletion of the banks’ capital.
                       For example, as of June 30, 2008, California reported $621.9 million
                       in total risk-based capital and was well-capitalized for PCA purposes; 
                       and the bank’s total risk-based capital ratio was 10.0 percent. Three

8
 Fannie Mae and Freddie Mac were created to provide stability in the secondary mortgage market and
promote access to mortgage credit throughout the United States. By purchasing some mortgages and
guaranteeing others, Fannie Mae and Freddie Mac help bring the liquidity of global capital markets to local
banks and other financial institutions.

                       Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 5
                       (OIG-12-043)
                       months later, as of September 30, 2008, California’s total risk-based
                       capital fell to $415.5 million; and the bank’s total risk-based capital
                       ratio fell to 6.5 percent, and the bank was undercapitalized.
                       Subsequently, during the fourth quarter of 2008, the four banks were
                       required to write down their GSEs by an additional $41.8 million in
                       total.

                       Corporate Bonds

                       The FBOP banks began purchasing corporate bonds from some of the
                       companies struggling in the financial, housing, and automobile sectors
                       in 2007. These purchases included bonds issued by Washington
                       Mutual Bank (WaMu). As shown in table 2, the FBOP banks wrote
                       down their holdings of corporate bonds issued by WaMu by $99.0
                       million after WaMu failed in September 2008. 9

                       Table 2. FBOP Banks’ Write-Downs of WaMU
                                Corporate Bond Holdings (in millions)


                                                    Total Write-downs
                       FBOP Bank                    as of 12/31/2008
                       California                                $39.9
                       Park                                        29.6
                       San Diego                                   20.2
                       Pacific                                      9.3
                       Total                                     $99.0
                       Source: OCC records of the FBOP banks’ other than
                       temporary impairment charge (OTTI) data.


                       The devaluation of the WaMu bonds further contributed to significant
                       losses and depletion of the FBOP banks’ collective capital.

                       Concentrations in GSE Securities

                       For three FBOP banks (California, San Diego, and Pacific), their
                       holdings in GSE securities represented concentrations of 64 percent,
                       54 percent, and 38 percent of total risk-based capital, respectively.

9
 We and the FDIC OIG performed a joint review of the causes of WaMu’s failure and the federal
supervision exercised over the institution. Our April 2010 report describes the high risk lending strategy by
WaMu. (Treasury OIG and FDIC OIG, Evaluation of Federal Regulatory Oversight of Washington Mutual
Bank, EVAL-10-002, April 9, 2010).

                       Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 6
                       (OIG-12-043)
                     OCC defines a concentration as all holdings, by a single obligor or
                     industry or related obligors or industries, equaling 25 percent or more
                     of capital funds. 10 Concentrations pose additional risk to an institution
                     because negative events affecting overly concentrated groups have
                     greater detrimental impact. Statutory and regulatory standards,
                     however, allowed banks to purchase investment securities issued by
                     Fannie Mae and Freddie Mac without limitation. 11 In this regard,
                     OCC’s guidance states banks should exercise prudent judgment when
                     purchasing these securities. 12 In an interview, OCC officials stated
                     that FBOP management considered their 2007 decision to use nearly
                     $1 billion in excess liquidity to purchase GSE preferred securities to be
                     a safe investment based on these standards. 13

                     In the end, however, the concentrations of the FBOP banks’ holdings
                     in GSE securities exposed the banks to greater risk and were
                     contributing factors of their failures. In retrospect, as we have stated
                     in a prior material loss review of an earlier failure of a national bank
                     when the value of its GSE holdings collapsed, banks and regulators
                     need to be cognizant that securities that are not backed by the full
                     faith and credit of the U.S. government do entail risk, and high
                     concentrations of such holdings elevate that risk. 14

                     Aggressive Growth and High-Risk Concentrations in CRE Loans

                     The FBOP banks historically focused on CRE lending and, as a result,
                     the banks’ loan portfolios were concentrated in CRE loans. According
                     to OCC’s analysis of the failures of the FBOP banks, FBOP’s business
                     model included purchasing CRE loan pools at meaningful discounts to
                     take advantage of market turmoil during economic slowdowns.
                     Therefore, true to its business model, beginning in late 2007, as many
                     other lenders were curtailing CRE lending activity, the FBOP banks’
                     boards and management implemented a strategy of substantial loan
                     growth by originating CRE loans and purchasing CRE-related loan
                     pools. The banks’ loan portfolio growth from the third quarter of 2007


10
   OCC Comptroller’s Handbook, Section 216, Concentrations of Credits (March 1990).
11
   12 U.S.C. 24 (Seventh); OCC Interpretive Letter #931 (April 2002).
12
   OCC Comptroller’s Handbook, Section 203, Investment Securities (March 1990).
13
   The approximately $1 billion purchase of Fannie Mae and Freddie Mac preferred stock reflects the
collective purchase amount for all nine FBOP banks.
14
   Treasury OIG, Safety and Soundness: Material Loss Review of National Bank of Commerce, OIG-09-042,
(August 6, 2009).

                     Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 7
                     (OIG-12-043)
                     to the third quarter of 2008 increased collectively, with growth in
                     CREs averaging 34 percent.

                     OCC guidance to examiners specifies the following levels at which an
                     institution’s CRE loans represent a concentration risk requiring further
                     analysis:

                     •   total reported loans for construction, land development, and other
                         land represent 100 percent or more of the institution’s total risk-
                         based capital; or
                     •   total CRE loans represent 300 percent or more of the institution’s
                         total risk-based capital, and the outstanding balance of the
                         institution’s CRE loan portfolio has increased by 50 percent or
                         more during the prior 36 months. 15

                     As shown in figures 1 and 2, the FBOP banks’ CRE loans as a
                     percentage of total risk-based capital significantly exceeded
                     supervisory benchmarks. It should be noted that the significant
                     increase in the second half of 2008 can also be attributed to the lower
                     capital levels as a result of the write-downs in the banks’ holdings of
                     GSE securities and corporate bonds.




15
  OCC Bulletin 2006-46, Concentrations in Commercial Real Estate Lending, Sound Risk Management
Practices (December 6, 2006).

                     Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 8
                     (OIG-12-043)
Figure 1: FBOP Banks' Construction, Land Development, and Other Land Loans
As Percentages of Total Risk-Based Capital: March 2007 through December 2008




 Source: FBOP banks’ call reports as of March 31, 2007, through December 31, 2008.

Figure 2: FBOP Banks' Total CRE as Percentage of Total Risk-Based
Capital: March 2007 through December 2008




 Source: FBOP banks’ call reports as of March 31, 2007, through December 31, 2008.


By late 2008 the FBOP banks’ CRE loan portfolios began to deteriorate
significantly. As of June 2009, CRE loans accounted for 98 percent of
past due and non-accrual loans at California, 98 percent at Pacific,

Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 9
(OIG-12-043)
                       81 percent at Park, and 98 percent at San Diego. As the deterioration
                       in the FBOP banks’ CRE loan portfolios and other investment losses
                       depleted capital, the banks’ CRE loans as a percentage of total risk-
                       based capital dramatically increased in late 2008. Ultimately,
                       exacerbated by the write-downs in the banks’ holdings of GSE
                       securities and corporate bonds, the FBOP banks were unable to
                       recover from the increasing losses in their CRE loan portfolios.

                       Inadequate Capital Levels

                       The FBOP banks’ capital levels were inadequate to support their
                       significant exposure to loans with higher levels of credit risk. OCC
                       regulations prescribe minimum capital ratios to be maintained by
                       national banks. 16 These regulations also state that banking institutions
                       should hold capital commensurate with the level and nature of all
                       risks. OCC’s Comptroller’s Handbook cites risk diversification as a
                       qualitative factor to consider when determining capital adequacy. 17
                       According to the Comptroller’s Handbook, a greater degree of assets
                       and liability concentrations increases the need for capital in most
                       banks, and bank assets should be reviewed for concentrations in
                       industries, product lines, customer types, funding sources, and
                       nonbank activities.

                       From the beginning of 2007, through the third quarter of that year,
                       the FBOP banks’ capital levels were above the PCA regulatory
                       minimum capital level for well-capitalized, with Park more than 2
                       percent above the regulatory minimum as of September 2007.
                       However, as illustrated by figure 3, beginning in the third quarter of
                       2007, two FBOP banks’ capital levels declined as the banks increased
                       their CRE loan concentrations and acquired GSE preferred equity
                       investments. By the end of the first and second quarters of 2008,
                       capital levels at each of the FBOP banks were either at or near the
                       minimum levels to be considered well-capitalized under PCA. As a
                       result, as discussed above, the FBOP banks did not have the capital
                       necessary to withstand the adverse effects of the GSE write-downs
                       and deteriorating CRE loan portfolios.

16
   12 C.F.R. Part 3, Subpart B, §3.6, Minimum Capital Ratios, states that all national banks must have and
maintain a minimum Tier 1 capital ratio of at least 3 percent of adjusted total assets. It further stated that
all national banks must have and maintain the minimum risk-based capital ratio set forth in Appendix A,
Risk-Based Capital Guidelines, which specifies 8 percent.
17
   OCC’s Comptroller’s Handbook, Section 303, Capital Accounts and Dividends (August 1991).

                       Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 10
                       (OIG-12-043)
                       Figure 3. FBOP Banks’ Risk-Based Capital Levels: March 2007 through September 2009



                            14%
                                    Well Capitalized
                            12%

                            10%                                                                         California
                                    Adequately Capitalized
                             8%                                                                         Pacific
                                    Undercapitalized
                             6%                                                                         Park

                             4%     Significantly Undercapitalized                                      San 
                                                                                                        Diego
                             2%
                                    Critically Undercapitalized
                             0%



                       Source: FBOP banks’ call reports as of March 31, 2007, through September 30, 2009.

                       By late 2008, FBOP estimated it needed $544 million in TARP funding
                       and an additional $100 million in private capital for its banks to
                       achieve well-capitalized status under PCA. However, the FBOP banks
                       were not successful in obtaining TARP funding or additional capital
                       from private sources. By the time OCC placed the FBOP banks into
                       receivership in October 2009, each of the banks, with the exception
                       of Park, 18 were either significantly undercapitalized or critically
                       undercapitalized.

                       Efforts to Obtain TARP Funding

                       Treasury opened the TARP Capital Purchase Program (CPP) 19 to
                       privately-held financial institutions like FBOP in November 2008. On
                       December 2, 2008, FBOP submitted an application to OCC requesting
                       a total of $544 million for all nine of its banks. Because the FBOP
                       banks had composite CAMELS ratings of 3 and performance ratios
                       that were below benchmarks established by Treasury, CPP program

18
  Park was considered adequately capitalized at the time of receivership.
19
  On October 14, 2008, Treasury announced the voluntary CPP under which Treasury could purchase
senior preferred shares, on standardized terms, of publicly-held financial institutions. The program was
extended to privately-held corporations on November 17, 2008.

                       Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 11
                       (OIG-12-043)
                         procedures required that the application also be reviewed by the
                         interagency TARP Capital Purchase Program Council (CPP Council). 20

                         According to the minutes of the CPP Council meeting on
                         December 17, 2008, OCC recommended making the TARP request
                         contingent on FBOP raising additional private capital of $100 million.
                         After discussion, the CPP Council agreed that further analysis and
                         information was needed to address certain concerns and questions
                         before the CPP Council could make a recommendation on the
                         application.

                         On January 9, 2009, FBOP submitted an updated application to OCC.
                         The minutes of the CPP Council meeting on January 14, 2009,
                         indicated OCC recommended the TARP funding be approved but its
                         recommendation was contingent on FBOP receiving and down
                         streaming a $150 million bridge loan 21 into the banks. The minutes
                         documented concerns and questions by CPP Council members
                         regarding FBOP’s condition and its recapitalization plan. According to
                         the minutes, the CPP Council deferred action on the TARP application.
                         An OCC official told us that FBOP’s application for TARP funding was
                         not presented again before the CPP Council; and ultimately, FBOP did
                         not receive TARP funding.

                         Efforts to Raise Private Capital

                         Following the significant write-downs of the GSE investments, FBOP
                         informed OCC that a $600 million transaction with a private equity
                         group, consisting of $300 million preferred stock and $300 million
                         subordinated debt, would close by September 30, 2008, or at the
                         latest, in October 2008. The transaction however, never came to
                         terms or agreement and the private equity group withdrew its interest
                         when FBOP did not receive TARP funds. According to OCC officials,
                         market trends at the time reflected investor interest was primarily
                         focused on those institutions that were successful in obtaining TARP
                         funds.




20
     The CPP Council consisted of representatives from OCC, OTS, FDIC, and FRB.
21
     FBOP’s plan was to subsequently replace the bridge loan with subordinated debt.

                         Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 12
                         (OIG-12-043)
                        Park’s and Citizens’ Cross-Guarantee Liability

                        An insured depository institution is liable for any loss incurred by
                        FDIC, or any loss that FDIC reasonably anticipates incurring in
                        connection with (1) the default of a commonly controlled insured
                        depository institution or (2) any assistance provided by FDIC to any
                        commonly controlled insured depository institution in danger of
                        default. 22

                        On October 30, 2009, OCC closed California, Pacific, San Diego, and
                        Bank USA by appointing FDIC as receiver due to their critically
                        deficient capital, asset quality, and earnings, and because there was
                        no reasonable prospect for the institutions to become adequately
                        capitalized without federal assistance. On the same day, FDIC, after
                        consulting with OCC, issued a Notice of Assessment of Liability in the
                        amount of $1.7 billion against Park, an FBOP-owned institution, which
                        reported $391 million of total risk-based capital as of September 30,
                        2009. 23 FDIC also issued a separate Notice of Assessment of Liability
                        of $118 million against Citizens, the other surviving FBOP-owned
                        national bank. FDIC allocated the liability between the two institutions
                        based on its estimate of the amount of the cross-guaranty liability
                        shared between the two surviving FBOP institutions.

                        Park’s immediately payable cross-guaranty liability caused the bank to
                        not be a viable institution as the assessment exceeded Park’s total
                        capital. Park’s depleted capital levels caused the bank to be critically
                        undercapitalized with no reasonable prospect of becoming adequately
                        capitalized. As a result, on October 30, 2009, OCC placed both Park
                        and Citizens into receivership.

OCC’s Supervision of the FBOP Banks
                        OCC’s supervision of the FBOP banks did not prevent material losses
                        to the DIF. We concluded that OCC had a reasonable basis at the time
                        of its examinations to believe the banks could manage the risks of

22
  12 U.S.C. §1815(e)(1)(A).
23
   FDIC issued a Notice of Assessment of Liability to Park and Citizens as each of the FBOP bank
subsidiaries were insured depository institutions that FBOP commonly controlled. The liability amount
reflected the anticipated proceeds of the transfer of certain assets of the closed banks to an acquiring
institution in return for the assumption by the acquiring institution of certain deposits and liabilities of the
closed banks.

                        Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 13
                        (OIG-12-043)
                      increased concentrations in CRE. We noted that OCC is the only FBA
                      to allow a 20 percent risk-weight of GSE equity securities; the other
                      FBAs require a 100 percent risk-weight assignment for the same
                      equity securities. We also determined that OCC exercised reasonable
                      supervisory judgment in providing deferred tax asset relief to the FBOP
                      banks. In addition, OCC used PCA in a timely manner.

                      Summary of OCC’s Supervisory Actions

                      The following table summarizes OCC’s examinations of the FBOP
                      banks and related enforcement actions from 2006 to 2009. 24
                      Generally, matters requiring attention (MRAs) represent the most
                      significant items reported in reports of examination (ROE) requiring
                      corrective action.

     Table 3. Summary of OCC’s Examinations and Enforcement Actions for FBOP Banks
                                                         Examination Results
                                                                          Number of
     Date started/ Assets (in                          Number of      recommendations            Enforcement
     completed a   (millions)b   CAMELS rating         MRAs             or suggestions           actions
     California
     1/3/2006/
                      $5,512            1/221211                  0                 0            None
     4/13/2006
     1/17/2007
                      $5,584            1/221211                  1                 3            None
     7/12/2007
     1/7/2008
                      $5,633            2/221211                  2                 2            None
     4/25/2008
                                                                                                 Individual
                                                                                                 Minimum
                                                                                                 Capital Ratios
                                                                                                 (IMCR)
     1/5/2009                                                                                    imposed
                      $6,292            4/544443                  8                 26
     4/21/2009                                                                                   2/10/2009

                                                                                                 Consent order
                                                                                                 issued
                                                                                                 5/28/2009
     Park
     10/16/2006
                      $3,662            1/121112                  0                 0            None
     1/30/2007
     8/29/2007
                      $4,245            1/122121                  2                 7            None
     2/05/2008


24
  OCC followed its internal requirements with respect to the timeliness of annual examinations of the FBOP
banks and quarterly monitoring of the bank.

                      Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 14
                      (OIG-12-043)
 Table 3. Summary of OCC’s Examinations and Enforcement Actions for FBOP Banks
                                                     Examination Results
                                                                      Number of
 Date started/ Assets (in                          Number of      recommendations                  Enforcement
 completed a   (millions)b   CAMELS rating         MRAs             or suggestions                 actions
                                                                                                   IMCRs
                                                                                                   imposed
 9/22/2008                                                                                         2/6/2009
                       $4,892                 3/333332              11                25
 5/13/2009                                                                                         Consent order
                                                                                                   issued
                                                                                                   8/26/2009
 San Diego
 6/12/2006
                       $2,453                 2/212112              1                 7            None
 8/11/2006
 6/11/2007
                       $2,475                 2/212212              0                 0            None
 9/20/2007
                                                                                                   IMCRs
                                                                                                   imposed
 5/27/2008                                                                                         2/6/2009
                       $3,037                 3/323432              6                 13
 2/10/2009                                                                                         Consent order
                                                                                                   issued
                                                                                                   8/24/2009
 Pacific
 8/1/2007
                       $1,455                 2/222312              0                 0            None
 12/6/2007
                                                                                                   IMCRs
                                                                                                   imposed
 7/25/2008                                                                                         2/6/2009
                       $1,887                 3/323432              7                 16
 3/12/2009                                                                                         Consent order
                                                                                                   issued
                                                                                                   8/25/2009
Source: OCC ROEs and consent orders.
a
  An examination cycle concludes with the transmittal of the ROE.
b
  Asset amounts are as of December 31.



                        OCC Supervision of the FBOP Banks During a Critical Period of Growth
                        in CREs and GSEs

                        Supervision of Aggressive Growth and Concentration in CREs

                        As discussed above, beginning in late 2007, the FBOP banks’ boards
                        and management implemented a strategy of substantial loan growth
                        by originating CRE loans and purchasing CRE-related loan pools. This
                        growth further increased the FBOP banks’ CRE loans as a percentage

                        Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 15
                        (OIG-12-043)
of total risk-based capital, which had already significantly exceeded
OCC supervisory benchmarks relating to CRE concentrations.

According to an OCC examiner, the CRE concentrations were not a
supervisory concern in 2006 and 2007 and prior because the loans
were well managed, well underwritten, geographically distributed, and
diversified by property type. Furthermore, the OCC examiner stated
FBOP’s experience with CRE concentration and implementing this type
of business model had been successful through different economic
cycles. Another OCC examiner told us that FBOP had the system and
processes in place to mitigate the concentration risks, as required by
OCC’s 2006 concentration policy.

In this regard, OCC’s ROEs during 2007 did note strong management
at the FBOP banks of CRE concentrations. For example, OCC’s
January 2007 ROE for California cited the bank’s high CRE
concentrations, but noted strong board and management oversight
and the maintenance of strong credit practices despite competitive
pressures. The ROE further noted that although California’s risk was
increasing due to concentrations in CRE loans and the recent
weakening of the real estate markets, the examiners observed that
management had prudently and actively managed this heightened risk
level. In OCC’s June 2007 ROE for San Diego, the examiners noted
that within the CRE loan portfolio, there was reasonable diversification
and that the board and management had demonstrated expertise and
success in managing these concentration risks.

Though OCC overall did not have significant concerns with the CRE
concentrations, they did note improvements were needed shortly after
its 2006 concentration policy guidance was issued. For example, in
their June 2007 ROE, the examiners recommended improvements to
San Diego’s loan underwriting and concentration risk management
practices to conform to interagency guidance on CRE concentrations,
including establishing formal concentration limits, an ongoing
mechanism for reporting and reviewing concentrations, exception
reporting for the board, and stress tests of the CRE portfolio.

Based on our assessment of the supervisory record, we concluded
that OCC had a reasonable basis, at the time of its examinations, to
believe the banks could manage the risks of increased concentrations
in CRE.


Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 16
(OIG-12-043)
                       Supervision of Capital Levels

                       As the FBOP banks pursued various growth strategies that increased
                       the concentrations and credit risk at the banks in late 2007 and early
                       2008, capital levels at the banks declined, as shown in figure 3 above.
                       By June 2008 the FBOP banks’ capital levels declined to a point
                       where they were barely above the regulatory minimum required to be
                       considered well-capitalized.

                       OCC examiners cited in their 2007 ROEs for all four FBOP banks the
                       threat of credit risk to capital due to large CRE concentrations.
                       Subsequently, in their 2008 ROEs for the four banks, the examiners
                       noted that the banks’ loan growths had outpaced their capital
                       growths. In the fourth quarter of 2008, in connection with OCC’s
                       ongoing monitoring of the banks’ conditions, OCC noted that the four
                       FBOP banks’ risk profiles had significantly increased due to rapid loan
                       growths, increased reliance on wholesale funding sources, declining
                       loan quality, and substantial investment portfolio losses.

                       On December 12, 2008, OCC’s examiners began reviews using
                       financial data as of September 30, 2008. The subsequent review
                       reports notified the FBOP banks of proposals to establish IMCRs
                       requiring the banks to achieve and maintain the minimum total risk-
                       based capital ratios of 10 percent, Tier 1 risk-based capital ratios of 8
                       percent, and minimum leverage ratios of 7 percent. 25 All the FBOP
                       banks responded to the IMCR Notice stating that they agreed to the
                       IMCRs or would make every effort to achieve them. In letters dated
                       February 2009, OCC imposed the IMCRs requiring the banks to
                       achieve and maintain the minimum total risk-based capital ratios by
                       June 30, 2009. However by the time the IMCRs were issued in
                       February 2009, the banks already experienced significant losses and
                       California was deemed significantly undercapitalized, with San Diego
                       being deemed undercapitalized.

                       As discussed above, OCC’s capital regulations state that banking
                       institutions should hold capital commensurate with the level and
                       nature of all risks. According to the Comptroller’s Handbook, higher
                       levels of asset and liability concentrations increase the need for capital

25
  Prior to the IMCRs, the FBOP banks were required to meet PCA minimum capital ratios of 10 percent
total risk-based capital, Tier 1 risk-based capital ratios of 6 percent, and minimum leverage ratios of 5
percent to be considered well-capitalized.

                       Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 17
                       (OIG-12-043)
                       in most banks, and bank assets should be reviewed for concentrations
                       in industries, product lines, customer types, funding sources, and
                       nonbank activities. 26

                       When we questioned the OCC examiners as to why the FBOP banks
                       were not required in late 2007 and early 2008 to start holding more
                       capital, the examiners cited the diversity in the types of CRE loans
                       made by the FBOP banks and the banks’ past successes with CRE
                       lending during previous economic downturns as risk mitigation factors.
                       As additional factors, OCC officials cited the banks’ profitability, good
                       asset quality, and manageable levels of problem assets through June
                       2008. When the FBOP banks’ call reports for the first quarter 2008
                       were published on April 30, 2008, OCC noted the significant asset
                       growth reported and began having discussions with management. As
                       discussed above, due to the low capital levels relative to the risks they
                       undertook, the FBOP banks did not have sufficient capital to weather
                       the write-downs, in the third quarter of 2008, to the values of their
                       GSE securities and corporate bonds, or the eventual asset quality
                       deterioration in their CRE loan portfolios. However, we believe, based
                       on the conditions at the time, OCC’s supervisory approach of the
                       banks’ capital was overall understandable.

                       OCC Regulations for Risk-Weighting of GSE Securities Should Be
                       Reconsidered

                       Bank assets are risk-weighted through assignment to one of four
                       standard risk-weight categories, depending on the nature of the
                       assets, obligors, and collateral. 27 As an asset’s level of risk increases,
                       the risk-weight assigned to the asset increases causing the total risk-
                       based capital ratio to decrease. Therefore, higher volumes of riskier
                       assets create the need for an institution to maintain larger amounts of
                       capital.

                       As discussed above, the FBOP banks purchased significant quantities
                       of GSE equity securities. OCC is the only FBA to risk weight these
                       securities at 20 percent. 28 The capital regulations of the other FBAs
                       require a risk-weight of 100 percent for the same equity securities. In
                       this regard, the investments in Fannie Mae and Freddie Mac preferred

26
   OCC’s Comptroller’s Handbook, Section 303.
27
   There are four standard risk-weight categories: 0 percent, 20 percent, 50 percent, and 100 percent.
28
   12 C.F.R. Part 3, Minimum Capital Ratios, Appendix A, Risk-Based Capital Guidelines, §3(a)(2)(vi).

                       Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 18
                       (OIG-12-043)
                     equity made by the three FDIC-regulated FBOP banks were risk-
                     weighted at 100 percent. OCC officials acknowledged the difference
                     in risk-weight assignment among the FBAs. According to an OCC
                     official, since there was a unique government relationship with Fannie
                     Mae and Freddie Mac, the 20 percent risk-weight was adopted by
                     OCC to reflect the quasi-governmental nature of the entities.

                     In light of the decline of market values and concentration of GSE
                     securities also being reported in a prior material loss review, 29 we
                     believe that OCC should re-assess its requirements on the risk-
                     weighting of GSE equity securities. A higher risk-weighting serves to
                     remind banks and examiners of the risks associated with certain bank
                     asset classes. It also provides examiners with added rationale to
                     recommend mitigating actions to banks when concentrations in certain
                     industries and businesses approach levels that threaten the safety and
                     soundness of an institution. While we recognize the unique
                     government relationship with the GSEs, there was never a federal
                     guarantee associated with the equity investments in these institutions.
                     If the FBOP banks had been required to risk-weight their holdings in
                     GSE equity securities at 100 percent, they may have exercised more
                     caution in their decisions to invest in these types of equity securities.

                     OCC Provided Deferred Tax Asset Relief to the FBOP Banks

                     As of September 30, 2008, the FBOP banks recognized OTTI in the
                     amounts of the write-downs of their holdings in GSE securities totaling
                     $749 million. The FBOP banks reported a total of approximately $512
                     million of this amount as deferred tax assets on their balance sheets,
                     and approximately $237 million was recorded as losses on their
                     income statements.

                     OCC regulations on minimum capital ratios require that a bank deduct
                     from its regulatory capital any deferred tax assets amounts that
                     exceed the lesser of either:

                         •   10 percent of its Tier 1 capital, net of goodwill and all intangible
                             assets other than purchased credit card relationships, mortgage
                             servicing assets and non-mortgage servicing assets; or


29
  Treasury OIG, Safety and Soundness: Material Loss Review of National Bank of Commerce, OIG-09-042,
(Aug. 6, 2009).

                     Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 19
                     (OIG-12-043)
                            •   The amount of deferred tax assets that the bank could
                                reasonably expect to realize within 1 year of the quarter-end call
                                report, based on its estimate of future taxable income for that
                                year. 30

                        FBOP calculated that, as of September 2008, 10 percent of Tier 1
                        capital for the FBOP banks, the lower of the two amounts, was
                        approximately $102 million. Therefore, under the regulatory guidance,
                        the FBOP banks would have been allowed to include $102 million in
                        their regulatory capital. The remaining portion of the deferred tax
                        assets ($410 million) would have been excluded from regulatory
                        capital.

                        However, the regulatory guidance also allows OCC to waive the
                        restrictions on deferred tax assets that banks can include in regulatory
                        capital. 31 OCC exercised this discretion on November 5, 2008, when it
                        granted temporary relief to the FBOP banks on the capital treatment of
                        deferred tax assets. Rather than restricting the amount of deferred tax
                        assets to be included in the FBOP banks’ capital to $102 million, OCC
                        allowed the FBOP banks to include as capital, deferred tax assets the
                        banks expected to realize within 4 years. FBOP estimated this amount
                        to be $343 million. This waiver was effective until the earlier of the
                        banks’ receipt of TARP funds or June 30, 2009.

                        According to OCC officials, OCC’s justifications for providing the
                        deferred tax asset relief included (1) sentiment expressed by Congress
                        in the Emergency Economic Stabilization Act of 2008 (ESSA) 32 and by
                        the announcements that the Secretary of the Treasury and FBAs
                        would work with institutions adversely affected by the impairment of




30
   12 C.F.R. Part 3, Minimum Capital Ratios, Appendix A, Risk-Based Capital Guidelines, §2,(c)(1)(iii).
31
   12 C.F.R. Part 3, Minimum Capital Ratios, Subpart A, Authority and Definitions, §3.4.
32
   ESSA (P.L. 110-343) became law on October 3, 2008. Section 103(6) of ESSA states that the Secretary
of the Treasury shall, among other things, take into consideration providing financial assistance to financial
institutions with assets under $1 billion that were well or adequately capitalized as of June 30, 2008, and
that as a result of the devaluation of the preferred GSE stock will drop one or more capital levels, in a
manner sufficient to restore the financial institutions to at least an adequately capitalized level. While we do
not disagree with OCC’s view that there was sentiment by the Congress regarding the consideration of
losses in preferred GSE stock in providing TARP financial assistance, the specific provision of EESA did limit
that consideration to smaller banks.

                        Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 20
                        (OIG-12-043)
                       GSE securities, 33 (2) the good earnings and the sound condition of the
                       FBOP banks prior to the GSE-related impairment losses, and (3) the
                       expectation by FBOP that its banks would generate sufficient taxable
                       earnings to realize the deferred tax assets that exceed the regulatory
                       capital limits.

                       Therefore, considering OCC’s rationale for providing the deferred tax
                       asset relief, its regulatory authority to provide the deferred tax asset
                       relief, and the uncertainties at the time surrounding how regulators
                       were to address the effects of the GSE receiverships to banks, we
                       concluded that OCC exercised reasonable regulatory discretion in its
                       decision to provide the deferred tax asset relief.

                       OCC’s Use of PCA and Enforcement Actions

                       The purpose of PCA is to resolve the problems of insured depository
                       institutions with the least possible long-term loss to the DIF. PCA
                       requires FBAs to take certain actions when an institution’s capital
                       drops to certain levels. PCA also gives regulators flexibility to
                       supervise institutions based on criteria other than capital to help
                       reduce deposit insurance losses caused by unsafe and unsound
                       practices.

                       As the FBOP banks’ capital levels deteriorated, OCC imposed PCA
                       restrictions in a timely manner and took other enforcement actions.
                       Specifically, OCC took the following key actions:

                       California and San Diego

                       •       On November 12, 2008, OCC notified California and San Diego
                               that they were undercapitalized based on their September 30,
                               2008, call reports. California’s and San Diego’s total risk-based
                               capital ratios were 6.5 percent and 6.7 percent, respectively.


33
   On September 7, 2008, concurrent with the action to place the GSEs into conservatorship, the FBAs
jointly announced that they were prepared to work with institutions that had significant GSE holdings
compared to their capital to develop capital restoration plans (CRP) pursuant to the capital regulations and
PCA. In a release issued the same day, the Secretary of the Treasury stated that the FBAs were
encouraging depository institutions to contact their primary federal regulator if they believe that losses on
their holdings of GSE common or preferred shares, whether realized or unrealized, were likely to reduce
their regulatory capital below "well capitalized." The Secretary noted that the FBAs were prepared to work
with the affected institutions to develop CRPs consistent with the capital regulations.

                       Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 21
                       (OIG-12-043)
        OCC required the banks to submit acceptable CRPs by
        December 15, 2008.

•       On December 15, 2008, California and San Diego submitted
        CRPs, which stated that FBOP would inject sufficient capital
        into the banks to increase their capital levels to well-capitalized.
        This capitalization was predicated on FBOP’s issuance of $544
        million in preferred shares pursuant to TARP or a $400 million
        private placement of FBOP’s subordinated debentures and $300
        million in borrowings from FDIC’s Temporary Liquidity Guaranty
        Program.

•       On February 6, 2009, and February 10, 2009, OCC imposed
        IMCRs on San Diego and California, respectively, to achieve by
        June 30, 2009, and maintain minimum total risk-based capital
        ratios of 10 percent, Tier 1 risk-based capital ratios of
        8 percent, and leverage ratios of 7 percent. On these same
        dates, OCC informed the banks that the CRPs submitted on
        December 15, 2008, must include additional information and
        required the banks to submit revised CRPs and IMCR-related
        capital plans by February 28, 2009.

•       On February 10, 2009, OCC notified California, that it was
        significantly undercapitalized based on its total risk-based
        capital of 5.36 percent reported on its December 31, 2008, call
        report.

•       On February 27, 2009, California and San Diego submitted
        revised CRPs and IMCR-related capital plans. The revised CRPs
        included six options that FBOP was pursuing to raise capital,
        including (1) the consolidation of bank charters, (2) the sale of
        FBOP preferred stock or debt, (3) the sale of San Diego, (4) the
        sale of Park, (5) extending the maturity of outstanding debt, and
        (6) reapplying for TARP funding. The CRPs also provided that
        the banks would comply with IMCRs by not purchasing loans,
        loan participations or investments securities; and obtaining
        capital injections of $382 million and $145 million from FBOP
        for California and San Diego, respectively.

•       On April 30, 2009, OCC disapproved the banks’ revised CRPs
        and IMCR-related capital plans because they lacked sufficient

Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 22
(OIG-12-043)
        support to indicate that the options would likely succeed in
        restoring the banks’ capital and were unlikely to occur before
        June 30, 2009. OCC required the banks to submit revised CRPs
        by May 29, 2009.

•       On May 28, 2009, California entered into a consent order with
        OCC. The consent order required the bank’s board and
        management to address identified deficiencies in the bank’s
        practices and condition. In particular, the consent order required
        California to a maintain total risk-based capital ratio of 10
        percent, Tier 1 risk-based capital ratio of 8 percent, and
        leverage ratio of 7 percent. The consent order also required the
        bank to develop and submit to OCC a capital plan; maintain an
        adequate allowance for loan and lease losses; establish
        appropriate liquidity risk limits; revise its investment policy;
        establish loan concentration limits; and take immediate and
        continuing action to protect its interest in criticized assets.

•       On May 29, 2009, California and San Diego submitted revised
        CRPs, which included restoring capital through the accumulation
        of earnings, a capital infusion, and minimal asset growth. The
        CRPs also included California receiving two capital infusions
        from FBOP during the second and third quarters of 2009, and
        San Diego receiving a capital infusion from FBOP during the
        second quarter of 2009.

•       On July 6, 2009, OCC disapproved the California and San Diego
        revised CRPs, noting that the banks’ efforts to raise capital
        were unsuccessful to date, and that FBOP’s Chairman and Chief
        Executive Officer had stated that raising capital would take
        longer than originally planned. OCC directed California and San
        Diego to immediately prepare and submit revised CRPs.

•       On July 31, 2009, OCC notified California and San Diego that
        they were critically undercapitalized based on the filing of their
        June 30, 2009, call reports. California’s and San Diego’s
        tangible equity ratios were 0.94 percent and 1.69 percent,
        respectively. OCC required California and San Diego to
        immediately submit acceptable CRPs.




Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 23
(OIG-12-043)
•       On August 24, 2009, San Diego entered into a consent order
        with OCC, including the same requirements as in California’s
        consent order discussed above.

•       On August 28, 2009, California and San Diego submitted
        revised CRPs and capital plans as required by the consent order.
        The CRPs provided that FBOP would raise at least $750 million
        from investors and inject sufficient capital into the banks to
        increase their capital levels to well-capitalized.

•       On September 28, 2009, OCC notified California and San Diego
        that the CRPs were not acceptable because they relied on
        future events without sufficient detail. OCC was unable to
        conclude that the CRPs were realistic and likely to succeed in
        restoring the banks’ capital levels. OCC directed the banks to
        submit disposition plans, pursuant to the consent order for the
        sale, merger, or liquidation of California and San Diego.

Pacific

•       On November 12, 2008, OCC notified Pacific that it was
        undercapitalized based on the 7.6 percent total risk-based
        capital ratio reported on its September 30, 2008, call report.
        OCC required that the bank submit an acceptable CRP by
        December 15, 2008.

•       On December 15, 2008, Pacific submitted a CRP, which stated
        that FBOP would inject sufficient capital into Pacific to increase
        the bank’s capital level to well-capitalized. As discussed above,
        this capitalization was predicated on the receipt of TARP and
        FDIC Temporary Liquidity Guaranty Program assistance.

•       On December 31, 2008, loan sales and a capital injection from
        FBOP in the fourth quarter of 2008 increased Pacific’s total risk-
        based capital ratio to 8.01 percent. Pacific became adequately
        capitalized; therefore, eliminating the need to submit a CRP.

•       On February 6, 2009, OCC imposed IMCRs on Pacific to
        achieve by June 30, 2009, and maintain, a minimum total risk-
        based capital ratio of 10 percent, Tier 1 risk-based capital ratio
        of 8 percent, and a minimum leverage ratio of 7 percent. OCC

Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 24
(OIG-12-043)
        further directed Pacific to submit a 3-year, IMCR-related capital
        plan by February 28, 2009.

•       On February 28, 2009, Pacific submitted an IMCR-related
        capital plan, which included six options that FBOP was pursuing
        to raise capital, including: (1) the consolidation of bank charters,
        (2) the sale of FBOP preferred stock or debt, (3) the sale of
        Pacific, (4) the sale of Park, (5) extending the maturity of
        outstanding debt, and (6) reapplying for TARP funding.

•       On April 22, 2009, OCC disapproved Pacific’s revised IMCR-
        related capital plan because it was based on actions that were
        not likely to succeed in restoring the bank’s capital and were
        unlikely to occur before June 30, 2009. OCC required the bank
        submit a revised CRP by May 29, 2009.

•       On May 27, 2009, Pacific submitted a revised IMCR-related
        capital plan, providing the bank’s capital would be restored
        through a capital infusion of $51 million from FBOP in the
        second quarter of 2009.

•       On July 7, 2009, OCC disapproved Pacific’s revised IMCR-
        related capital plan, noting that the bank’s efforts to raise
        capital were unsuccessful to date, and that FBOP’s Chairman
        and CEO had stated that raising capital would take longer than
        originally planned. OCC directed Pacific to immediately prepare
        and submit a revised CRP.

•       On July 31, 2009, OCC notified Pacific that it was
        undercapitalized based on the total risk-based capital ratio of
        6.45 percent reported on its June 30, 2009, call report; and
        required that Pacific submit a CRP by August 28, 2009.

•       On August 25, 2009, Pacific entered into a consent order with
        OCC, including the same requirements that were in California’s
        consent order discussed above.

•       On August 28, 2009, Pacific submitted a CRP and capital plan
        as required by the consent order. The CRP provided that FBOP
        would raise $750 million from investors and inject $70 million



Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 25
(OIG-12-043)
        of new capital into Pacific to increase its capital level to well-
        capitalized.

•       On September 28, 2009, OCC notified Pacific that the CRP was
        not acceptable because it relied on future events without
        sufficient detail. OCC was unable to conclude that the CRP was
        realistic or likely to succeed in restoring Pacific’s capital level.
        OCC directed Pacific to submit a disposition plan, pursuant to
        the consent order for the sale, merger, or liquidation of Pacific.

OCC closed California, San Diego, and Pacific on October 30, 2009,
and appointed FDIC receiver. The action was 91 days after California
and San Diego were deemed critically undercapitalized.

Park

•       On November 17, 2008, OCC notified Park that it was in the
        PCA adequately capitalized category based on the 8.9 percent
        total risk-based capital ratio reported on its September 30,
        2008, call report.

•       On February 6, 2009, OCC imposed IMCRs requiring Park to
        achieve IMCRs by June 30, 2009, and maintain a minimum
        total risk-based capital ratio of 10 percent, Tier 1 risk-based
        capital ratio of 8 percent, and a minimum leverage ratio of
        7 percent.

•       On February 26, 2009, Park submitted an IMCR-related capital
        plan, which included Park reducing net loans, selling investment
        securities, investing bank-owned life insurance in investments
        securities with a lower risk-weighting for capital purposes, and
        retain earnings. The plan did not rely on any capital injections
        from FBOP. OCC’s 2008 ROE informed Park that its IMCR-
        related capital plan was acceptable.

•       On August 26, 2009, Park entered into a consent order with
        OCC, including the same requirements as in California’s consent
        order discussed above.

•       On September 2, 2009, Park submitted a capital plan, as
        required by the consent order, which included FBOP raising at

Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 26
(OIG-12-043)
                               least $750 million from investors and injecting sufficient capital
                               into Park to cause it to be well-capitalized.

                       •       On September 28, 2009, OCC notified Park that the capital plan
                               was not acceptable because it relied on future events without
                               sufficient detail. OCC directed Park to submit a detailed plan,
                               pursuant to the consent order, for the sale, merger, or
                               liquidation of Park.

                       •       On October 13, 2009, OCC notified Park that a $6.5 million
                               capital contribution from FBOP on September 30, 2009, should
                               not have been included in Park’s regulatory capital. Park was
                               required to reverse the contribution and exclude it from its
                               regulatory capital levels in call reports filed after October 13,
                               2009. 34

                       •       On October 30, 2009, as a result of its $1.734 billion cross-
                               guarantee liability to the FDIC in connection with its
                               receiverships of the four closed national banks and three closed
                               state banks, Park’s capital was depleted to approximately
                               negative $1.4 billion and the bank’s tangible equity capital ratio
                               was negative, approximately 30 percent. OCC notified Park that
                               it was critically undercapitalized. OCC immediately placed Park
                               in receivership with FDIC.


Causes of Failure of Bank USA and Citizens
                       Pursuant to section 38(k), we also conducted reviews of the failures
                       of Bank USA and Citizens that were limited to (1) ascertaining the
                       grounds identified by OCC for appointing the FDIC as receiver and



34
  On September 30, 2008, four FBOP banks, including Park and Citizens, made $40 million in loans to two
non-bank subsidiaries. On the same date, the non-bank subsidiaries paid the $40 million as cash dividends
to FBOP, which immediately infused the funds into five subsidiary institutions as capital. Park and Citizens
received $6.5 million and $1.4 million, respectively, of the $40 million from FBOP. OCC determined based
on Emerging Issues Task Force Issue No. 85-1, Classifying Notes Received for Capital Stock, that the banks
received what was in substance a note, rather than an asset. Accordingly, the banks should have reported
the note receivable from the non-bank subsidiaries as reductions of equity capital on their call reports.
Therefore, OCC required both Park and Citizens to reverse the recording of the capital contribution as
capital. We have referred these capital-related transactions to the Treasury Inspector General’s Office of
Investigations.

                       Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 27
                       (OIG-12-043)
(2) determining whether any unusual circumstances exist that might
warrant more in-depth reviews of the losses.

Bank USA

OCC appointed FDIC as receiver for Bank USA based on the following
grounds: (1) the bank experienced substantial dissipation of assets or
earnings due to an unsafe or unsound practice, (2) the bank incurred
or was likely to incur losses that would deplete all or substantially all
of its capital, and there was no reasonable prospect for the institution
to become adequately capitalized without federal assistance, and
(3) the bank’s unsafe or unsound practices or condition are likely to
otherwise seriously prejudice the interests of the bank’s depositors or
the DIF.

The primary causes of Bank USA’s failure were a combination of
credit losses, including substantial write-downs on investments in GSE
securities, and the late 2007 decision by board and management to
increase already significant concentrations in CRE lending. In 2008,
the bank recorded write-downs of $12.6 million in its investment
portfolio, with $10.9 million of this amount being attributable to its
holdings in GSE securities. These losses significantly reduced Bank
USA’s capital, resulting in the bank not being able to weather the
deterioration in its loan portfolio driven by a period of severe economic
downturn in the CRE market. As the bank’s financial condition further
deteriorated, the bank was unable to raise adequate capital and OCC
appointed FDIC as receiver on October 30, 2009.

Citizens

OCC appointed FDIC as receiver for Citizens based on the following
grounds: (1) Citizens’ assets were less than its obligations to its
creditors and others, including members of the institution; (2) Citizens
was undercapitalized and had no reasonable prospect of becoming
adequately capitalized; and (3) Citizens was critically undercapitalized.

The primary cause of Citizens’ failure was the immediately payable
cross-guaranty liability of $118 million that Citizens owed FDIC in
connection with its receiverships of the four closed national banks and
three closed state banks. As a result of the cross-guaranty liability,
which caused Citizens’ total liabilities to exceed its total assets,


Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 28
(OIG-12-043)
           Citizens became critically undercapitalized under PCA with no
           reasonable prospect of becoming adequately capitalized. On
           October 30, 2009, OCC closed Citizens and appointed FDIC as
           receiver.

           We determined that there were no unusual circumstances surrounding
           the Bank USA’s and Citizens’ failures or the supervision exercised by
           OCC. Accordingly, we have determined that more in-depth reviews of
           these banks’ failures by our office are not warranted.


Recommendation

           As a result of our material loss reviews of the FBOP banks, we
           recommend that the Comptroller of the Currency re-evaluate whether
           OCC guidance for risk-weighting of GSE equity securities should be
           consistent with the other FBAs and changed from 20 percent to 100
           percent.

           Management Response

           OCC agreed that a re-evaluation of its guidance for risk-weighting GSE
           equity securities is appropriate, and anticipates addressing this in the
           upcoming notice of proposed rulemaking for Basel III, to ensure
           consistency among all of the federal banking agencies.

           OIG Comment

           We consider OCC’s planned action to be responsive to our
           recommendation. OCC will need to record in the Joint Audit
           Management Enterprise System (JAMES), the Department of the
           Treasury’s audit recommendation tracking system, an anticipated date
           for completing its planned action.




           Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 29
           (OIG-12-043)
                               * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may contact
me at (202) 927-5776 or J. Mathai, Audit Manager, at
(202) 927-0356. Major contributors to this report are listed in
appendix 4.



/s/
Susan L. Barron
Audit Director




Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 30
(OIG-12-043)
                        Appendix 1
                        Objectives, Scope, and Methodology




                        As one audit, we conducted material loss reviews of the following
                        national bank subsidiaries owned by First Bank of Oak Park
                        Corporation (FBOP) of Oak Park, Illinois, and collectively referred to
                        in this report as the FBOP banks: (1) California National Bank
                        (California) of Los Angeles, California; (2) Park National Bank (Park)
                        of Chicago, Illinois; (3) San Diego National Bank (San Diego) of San
                        Diego, California; and (4) Pacific National Bank (Pacific) of San
                        Francisco, California. The material loss reviews were conducted in
                        response to our mandate under section 38(k) of the Federal Deposit
                        Insurance Act. 35 This section provides that if the Deposit Insurance
                        Fund (DIF) incurs a material loss with respect to an insured
                        depository institution, the inspector general for the appropriate
                        federal banking agency is to prepare a report to the agency that

                        •    ascertains why the institution’s problems resulted in a material
                             loss to the DIF;
                        •    reviews the agency’s supervision of the institution, including its
                             implementation of the prompt corrective action (PCA) provisions
                             of section 38; and
                        •    makes recommendations for preventing any such loss in the
                             future.

                        The law also requires the inspector general to complete the report
                        within 6 months after it becomes apparent that a material loss has
                        been incurred.

                        At the time of failure of the FBOP banks on October 30, 2009,
                        section 38(k) defined a loss as material if it exceeded the greater of
                        $25 million or 2 percent of the institution’s total assets. We
                        initiated material loss reviews of the FBOP banks based on the loss
                        estimates by the Federal Deposit Insurance Corporation (FDIC),
                        which on the date of failure were $991.2 million, $695.5 million,
                        $413.0 million, and $250.1 million for California, Park, San Diego,
                        and Pacific, respectively.

                        Our objectives of the material loss reviews were to determine the
                        causes of failure of the FBOP banks; assess the Office of the
                        Comptroller of the Currency’s (OCC) supervision of the FBOP
                        banks, including implementation of the PCA provisions of


35
     12 U.S.C. § 1831o(k).

                        Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 31
                        (OIG-12-043)
Appendix 1
Objectives, Scope, and Methodology




section 38; and make recommendations for preventing such losses
in the future. To accomplish our objectives, we conducted
fieldwork at OCC’s headquarters in Washington, DC, interviewed
OCC and FDIC officials, and reviewed bank records that were
located at FDIC’s offices in Irvine, California. We conducted our
fieldwork from March 2010 through August 2010.

To assess the adequacy of OCC’s supervision of the FBOP banks,
we performed the following work.

    •   We determined the time period relating to OCC’s supervision
        of the FBOP banks covered by our audit would be from
        January 2006 through the banks’ failures on October 30,
        2009. This period included a total of 12 full scope safety
        and soundness examinations.

    •   We reviewed OCC’s supervisory files and records for the
        FBOP banks from 2006 through 2009. We analyzed OCC’s
        reports of examination, supporting supervisory
        documentation, and related supervisory correspondence to
        gain an understanding of the problems identified, the
        approach and methodology OCC used to assess the banks’
        conditions, and the regulatory action OCC used to compel
        bank management to address deficient conditions. We did
        not conduct independent or separate detailed reviews of the
        external auditors’ work or associated workpapers other than
        those incidentally available through the supervisory files.

    •   We interviewed and discussed various aspects of the
        supervision of the FBOP banks with OCC officials and
        examiners to obtain their perspective on the banks’ condition
        and the scope of the examinations.

    •   We interviewed FDIC officials responsible for monitoring the
        FBOP banks for federal deposit insurance purposes and in
        the closing of the FBOP banks.

    •   We interviewed an official with FDIC’s Division of
        Resolutions and Receiverships who was responsible in the
        supervision and closing of the FBOP banks.



Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 32
(OIG-12-043)
                      Appendix 1
                      Objectives, Scope, and Methodology




                          •   We assessed OCC’s actions based on its internal guidance
                              and requirements of the Federal Deposit Insurance Act. 36

                          •   We viewed a hearing held on January 21, 2010, relating to
                              federal regulators’ roles and responsibilities in the
                              supervision of banks. 37 As part of the hearing, OCC’s Senior
                              Deputy Comptroller for Midsize and Community Bank
                              Supervision testified relating to, among other issues, the
                              supervision of the national banks owned by FBOP. We also
                              reviewed the OCC official’s written testimony for the
                              hearing.

                      With respect to FBOP’s application for financial assistance from the
                      Department of the Treasury’s Troubled Assets Relief Program
                      Capital Purchase Program, we reviewed FBOP’s application and
                      related materials in OCC’s files and inquired of OCC personnel on
                      their perspectives of the application. We also reviewed the minutes
                      of the December 17, 2008 and January 14, 2009 Capital Purchase
                      Program Council meetings when OCC presented and discussed
                      FBOP’s TARP applications. We did not, as part of our scope,
                      review Treasury’s processing of the application.

                      We also performed reviews of (1) Bank USA, National Association
                      (Bank USA) of Phoenix, Arizona and (2) Citizens National Bank
                      (Citizens) of Teague, Texas, FBOP’s two other national bank
                      subsidiaries whose estimated losses to the DIF did not meet the
                      material loss review threshold as of the date of failure. As of
                      December 31, 2011, FDIC estimated losses for Bank USA and
                      Citizens were $32.2 million and $16.9 million, respectively.

                      Because the losses to the DIF were less than $200 million, as set
                      forth by section 38(k) of the Federal Deposit Insurance Act, we
                      conducted reviews of their failures that were limited to
                      (1) ascertaining the grounds identified by OCC for appointing the
                      FDIC as receiver and (2) determining whether any unusual
                      circumstances exist that might warrant more in-depth reviews of
                      the losses. Our limited reviews consisted of reviewing the

36
  12 U.S.C. § 1811 et seq.
37
  The hearing was held by the House of Representatives Committee on Financial Services,
Subcommittee on Financial Institutions and Consumer Credit. The hearing was entitled ”The Condition
of Financial Institutions: Examining the Failure and Seizure of an American Bank.”

                      Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 33
                      (OIG-12-043)
Appendix 1
Objectives, Scope, and Methodology




supervisory memos and the reports of examination covering the
period between 2006 through 2009 to determine the reasons for
the failures of the banks and assess the supervision of the
institutions by OCC. In addition, we inquired with OCC examination
staff their views on the failures of these banks.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 34
(OIG-12-043)
Appendix 2
Background




History of FBOP’s National Banks

First Bank of Oak Park Corporation (FBOP), a financial holding
company headquartered in Oak Park, Illinois, wholly owned nine
subsidiary institutions operating in Illinois, California, Texas, and
Arizona. The Office of the Comptroller of Currency (OCC) was the
primary federal regulator for the following six FBOP national banks:
(1) California National Bank (California), (2) Park National Bank
(Park), (3) San Diego National Bank (San Diego), (4) Pacific
National Bank (Pacific), (5) Bank USA, National Association (Bank
USA), and (6) Citizen’s National Bank (Citizens). The Federal
Deposit Insurance Corporation (FDIC) was the primary regulator for
the following three state-chartered FBOP banks: North Houston
Bank, Madisonville State Bank, and Community Bank of Lemont.

FBOP’s six national banks had total assets of approximately
$17.7 billion as of June 2009. Through these banks, FBOP had
147 branches serving Chicago, Los Angeles, Phoenix, San Diego,
San Francisco, and Teague, Texas. FBOP also had loan production
offices in Atlanta, Dallas, Denver, Minneapolis, New York City,
Portland, Sacramento, and Salt Lake City. FBOP acquired a number
of troubled institutions in Arizona, California, Illinois and Texas
between 1990 and 2007. Those banks acquired in California and
Illinois were consolidated into California and Park. In addition to
each bank originating loans, they purchased participations in loan
pools from Park. FBOP also provided services to the banks related
to audit, compliance, information technology, investment advice,
loan purchases, loan and other real estate owned services.

Although FBOP’s six national banks were operated on a
decentralized basis, FBOP’s Chairman and Chief Executive Officer
(CEO), who wholly owned FBOP, significantly controlled all major
decisions. FBOP’s Chairman and CEO also had a history of success
in commercial real estate (CRE) lending, and FBOP’s business
model centered on CRE loan transactions. In late 2007, as many
other lenders were curtailing their CRE lending activity, the FBOP
banks implemented a growth strategy by originating CRE loans and
purchasing loan pools primarily related to CRE. This strategy was
consistent with FBOP’s historical approach and represented FBOP’s
desire to take advantage of other institutions' unwillingness to
finance CREs due the market conditions at the time. As of

Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 35
(OIG-12-043)
                      Appendix 2
                      Background




                      June 30, 2009, real estate loans comprised approximately 93
                      percent of FBOP’s national banks’ total loan portfolios.

                      FBOP used wholesale funding sources such as the Federal Home
                      Loan Bank and the Federal Reserve’s Discount Window to
                      implement its growth strategy. 38 In 2007, the FBOP banks also
                      acquired significant amounts of Federal National Mortgage
                      Association (Fannie Mae) and Federal Home Loan Mortgage
                      Corporation (Freddie Mac) preferred equity for inclusion into their
                      investment portfolio, as well as various corporate bonds.

                      The following is additional information relating to the six national
                      banks owned by FBOP:

                      California

                      California was chartered in 1998; and was the largest of FBOP's
                      six national banks with 68 banking locations in southern California,
                      including its main office in Los Angeles. As of June 30, 2009,
                      California reported total assets of $7.07 billion.

                      Park

                      Park was chartered as a state bank called Pullman Bank and Trust
                      in 1883. Effective August 1995, the bank’s primary regulator
                      changed from the FDIC to the Board of Governors of the Federal
                      Reserve System (FRB). The bank was acquired in 2003 by FBOP
                      and converted to a national bank charter in January 2006. In
                      January 2006, FBOP merged its five Chicago area institutions into
                      Heritage/Pullman Bank and Trust Company and renamed it Park
                      National Bank. Park’s primary regulator changed from FRB to OCC.
                      Park had 31 banking locations, including its main office, in the
                      Chicago area. As of June 30, 2009, Park reported total assets of
                      $4.8 billion. Park also had approximately $630 million in trust
                      assets.




38
  A discount window is the lending facility of each regional Federal Reserve Bank through which
depository institutions may borrow short-term to meet temporary liquidity needs and cover reserve
deficiencies.

                      Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 36
                      (OIG-12-043)
Appendix 2
Background




San Diego

San Diego was chartered in 1981. FBOP acquired San Diego in
1997, when its total assets were $229 million. San Diego had 28
banking locations, including its main office, in the San Diego area.
As of June 30, 2009, San Diego reported total assets of
$3.4 billion.

Pacific

Pacific opened as California Savings and Loan Association in 1887.
Effective November 1, 2000, the bank changed its name to
California Savings Bank. FBOP acquired California Savings Bank in
2004. In 2007, the bank’s name changed to Pacific National Bank
and converted to a national bank charter. Pacific had 17 banking
locations, including its main office, in the San Francisco area. As of
June 30, 2009, Pacific reported total assets of $2.1 billion.

Bank USA

Bank USA opened as Commercial Pacific Savings and Loan
Association in 1984. FBOP acquired the institution in 2002. In
2007, the bank’s name changed to Bank USA, National
Association, and it was converted to a national bank charter. Bank
USA had 2 banking locations, including its main office, in the
Phoenix area. As of June 30, 2009, Bank USA reported total
assets of $185 million.

Citizens

Citizens opened in 1984. Citizens had 2 banking locations,
including its main office, in Teague, Texas. As of June 30, 2009,
Citizens reported total assets of $105.5 million.

OCC Assessments Paid by the FBOP Banks

OCC funds its operations in part through semiannual assessments
on national banks. OCC publishes annual fee schedules, which
include general assessments to be paid by each institution based
on the institution’s total assets. If the institution is a problem bank
(i.e., it has a CAMELS composite rating of 3, 4, or 5), OCC also

Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 37
(OIG-12-043)
Appendix 2
Background




applies a surcharge to the institution’s assessment to cover
additional supervisory costs. These surcharges are calculated by
multiplying the sum of the general assessment by 50 percent for 3-
rated institutions or by 100 percent for 4- and 5-rated institutions.
Tables 5 through 8 show the assessments paid to OCC by
California, Park, San Diego, and Pacific from 2006 through 2009.

Table 5: Assessments Paid by California to OCC, 2006–2009
                                                                      % of Total
Billing Period                Exam Rating       Amount Paid           Collections
1/1/2006–6/30/2006                 1               $439,454               0.15%
7/1/2006–12/31/2006                1                439,897               0.14%
1/1/2007–6/30/2007                 1                458,785               0.14%
7/1/2007–12/31/2007                1                465,151               0.14%
1/1/2008–6/30/2008                 2                439,471               0.12%
7/1/2008–12/31/2008                2                503,851               0.14%
1/1/2009–6/30/2009                 4                492,271               0.13%
7/1/2009–12/31/2009                4              1,075,118               0.29%
Source: OCC $MART database.


Table 6: Assessments Paid by Park to OCC, 2006–2009
                                                                      % of Total
Billing Period                Exam Rating     Amount Paid             Collections
1/1/2006–6/30/2006                n/a*                 n/a *                n/a *
7/1/2006–12/31/2006                1               $266,389               0.08%
1/1/2007–6/30/2007                 1                280,599               0.08%
7/1/2007–12/31/2007                1                287,961               0.08%
1/1/2008–6/30/2008                 1                302,313               0.08%
7/1/2008–12/31/2008                3                324,233               0.09%
1/1/2009–6/30/2009                 3                348,132               0.09%
7/1/2009–12/31/2009                3                515,619               0.14%
Source: OCC $MART database.
*In January 2006, FBOP merged its five Chicago area institutions into /Pullman Bank and
Trust and renamed it Park.




Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation    Page 38
(OIG-12-043)
Appendix 2
Background




Table 7: Assessments Paid by San Diego to OCC, 2006–2009
                                                                        % of Total
Billing Period                Exam Rating      Amount Paid              Collections
1/1/2006–6/30/2006                  2               $190,312                   0.06%
7/1/2006–12/31/2006                 2                190,880                   0.06%
1/1/2007–6/30/2007                  2                203,171                   0.06%
7/1/2007–12/31/2007                 2                199,978                   0.06%
1/1/2008–6/30/2008                  3                194,577                   0.05%
7/1/2008–12/31/2008                 3                223,043                   0.06%
1/1/2009–6/30/2009                  3                233,115                   0.06%
7/1/2009–12/31/2009                 3                383,054                   0.10%
Source: OCC $MART database.

Table 8: Assessments Paid by Pacific to OCC, 2007–2009*
                                                                        % of Total
Billing Period                Exam Rating      Amount Paid              Collections
7/1/2007–12/31/2007                 2               $126,508                   0.04%
1/1/2008–6/30/2008                  3                128,330                   0.04%
7/1/2008–12/31/2008                 3                160,409                   0.04%
1/1/2009–6/30/2009                  3                160,963                   0.04%
7/1/2009–12/31/2009                 3                265,512                   0.07%
Source: OCC $MART database.
*Pacific converted from a thrift to a national bank charter in January 2007.


Number of OCC Staff Hours Spent Examining the FBOP
Banks
Table 9 shows the number of OCC staff hours spent examining the
FBOP banks from 2006 to 2009.

Table 9: Number of OCC Hours Spent on Examining the FBOP Banks,
2006-2009
                          Examination                 Number of
FBOP National Bank         Start Date          Examination Hours
California               1/3/2006                            2,310
California               1/17/2007                           2,341
California               1/7/2008                            3,056
California               1/5/2009                            2,840
Park                     10/16/2006                          1,180
Park                     8/29/2007                           1,558
Park                     9/22/2008                           1,943




Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation      Page 39
(OIG-12-043)
Appendix 2
Background




                         Examination                Number of
FBOP National Bank        Start Date         Examination Hours
San Diego               6/12/2006                          1,537
San Diego               6/11/2007                          1,112
San Diego               5/27/2008                          1,875
Pacific*                8/1/2007                           1,044
Pacific                 7/25/2008                          1,719
Source: OCC Examiner View.
*Pacific converted from a thrift to a national bank charter in January 2007.
Note: Hours are totaled for safety and soundness examinations, information technology
examinations, and compliance examinations and do not include time spent performing off-
site monitoring.




Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 40
(OIG-12-043)
Appendix 3
Management’s Response




Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 41
(OIG-12-043)
Appendix 3
Management’s Response




Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 42
(OIG-12-043)
Appendix 4
Major Contributors to This Report




J. Mathai, Audit Manager
Sabrina A. Diggs, Auditor-in-Charge
K. Robert Hong, Auditor
Sheri A. George, Office Manager
Katherine E. Johnson, Referencer




Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 43
(OIG-12-043)
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
       Group

Office of the Comptroller of the Currency

    Acting Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

Federal Deposit Insurance Corporation

    Acting Chairman
    Inspector General

United States Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

United States House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Government Accountability Office

    Comptroller General of the United States




Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation   Page 44
(OIG-12-043)
